HHS/OIG, Audit -"Review of Providence Health Plans' Compliance With Medicare+Choice Prompt Payment Regulations
During The Period September 1, 2002 Through February 28, 2003,"(A-10-03-00013)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Providence Health Plans' Compliance With Medicare+Choice Prompt Payment Regulations During The Period
September 1, 2002 Through February 28, 2003," (A-10-03-00013)
June 23, 2004
Complete
Text of Report is available in PDF format (234 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Providence Health Plans (Providence) complied with Medicare+Choice
prompt payment regulations to timely pay or deny claims submitted by noncontracted providers during the period September 1, 2002
through February 28, 2003.  We found that Providence did not comply with prompt payment regulations.  Specifically,
Providence did not (1) pay at least 95 percent of clean claims within 30 days of receipt, (2) calculate
and pay interest on clean claims not paid within 30 days, and (3) pay or deny all claims within 60 days
of receipt.  These conditions occurred because Providence did not implement adequate procedures to (1) pay or
deny claims in a timely manner and (2) process resubmitted claims.  We recommended procedural improvements to
ensure that  at least 95 percent of clean claims are paid within 30 days of receipt, interest is calculated and paid
on clean claims not paid within 30 days, and  all claims are paid or denied within 60 days of receipt.  Providence
concurred with our findings.